 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




 MEDICARE COMPLIANCE REVIEW OF
 TULANE MEDICAL CENTER OF NEW
ORLEANS FOR CALENDAR YEARS 2010
           AND 2011




   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                     Patricia Wheeler
                                                Regional Inspector General

                                                        August 2013
                                                       A-06-12-00034
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                                              O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                 1100 C OMMERCE S TREET, R OOM 632
                                                                                   D ALLAS , TX 75242
August 21, 2013


Report Number: A-06-12-00034

Mr. Robert Hatcher
Chief Financial Officer
Advisor to Compliance
1415 Tulane Avenue
New Orleans, LA 70112

Dear Mr. Hatcher:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of Tulane Medical Center of
New Orleans for Calendar Years 2010 and 2011. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
https://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Michelle Richards, Audit Manager, at (214) 767-9202 or through email at
Michelle.Richards@oig.hhs.gov. Please refer to report number A-06-12-00034 in all
correspondence.
                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Robert Hatcher

Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, intended to be
payment in full to the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis
techniques. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for inpatient and outpatient services.

Tulane Medical Center of New Orleans (the Hospital) is a 354-bed hospital located in New
Orleans, Louisiana. Medicare paid the Hospital approximately $113 million for 5,874 inpatient
and 89,428 outpatient claims for services provided to beneficiaries during calendar years 2010
and 2011 (audit period) based on CMS’s National Claims History data.

Our audit covered $1,517,875 in Medicare payments to the Hospital for 125 claims that we
judgmentally selected as potentially at risk for billing errors, consisting of 79 inpatient and 46
outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 64 of the 125 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare

                                                  i
billing requirements for the remaining 61 claims, resulting in overpayments of $523,928 for the
audit period. Specifically, 35 inpatient claims had billing errors, resulting in overpayments of
$476,010, and 26 outpatient claims had billing errors, resulting in overpayments of $47,918.
These errors occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims within the selected risk areas that contained errors.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $523,928, consisting of $476,010 in overpayments for
       35 incorrectly billed inpatient claims and $47,918 in overpayments for 26 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

TULANE MEDICAL CENTER COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, the Hospital disagreed with our findings and
recommendations for 20 inpatient claims that it should have billed as outpatient or outpatient
with observation services and the 26 outpatient Lupron claims that it billed using an incorrect
HCPCS code. The Hospital agreed with our findings and recommendations for the remaining
claims and described actions it has taken to strengthen its internal controls to ensure full
compliance with Medicare requirements. The Hospital stated that it is committed to operating in
compliance with applicable rules and regulations and will intensify its efforts to improve its
internal controls. After reviewing the Hospital’s comments, we maintain that our findings and
recommendations are valid.




                                                ii
                                                    TABLE OF CONTENTS



INTRODUCTION .........................................................................................................................1

       BACKGROUND ...................................................................................................................1
          Hospital Inpatient Prospective Payment System ...........................................................1
          Hospital Outpatient Prospective Payment System .........................................................1
          Hospital Payments at Risk for Incorrect Billing ............................................................1
          Medicare Requirements for Hospital Claims and Payments .........................................2
          Tulane Medical Center of New Orleans ........................................................................2

       OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................2
          Objective ........................................................................................................................2
          Scope ..............................................................................................................................3
          Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS..................................................................................4

       BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................4
           Incorrectly Billed as Inpatient ........................................................................................4
           Incorrectly Billed Diagnosis-Related Group Codes ......................................................5

       BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................5
           Incorrectly Billed Lupron Injections ..............................................................................5

       RECOMMENDATIONS .......................................................................................................6

       TULANE MEDICAL CENTER COMMENTS ....................................................................6

       OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................7


APPENDIXES

       A: RESULTS OF REVIEW BY RISK AREA

       B: TULANE MEDICAL CENTER COMMENTS




                                                                      iii
                                                 INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after August
1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-service
basis that varies according to the assigned ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 2 All services and items within an APC group are
comparable clinically and require comparable resources.

Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis
techniques. Examples of the types of claims at risk for noncompliance included the following:

1
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1
    •   inpatient short stays,

    •   inpatient claims paid in excess of charges,

    •   inpatient claims billed with high-severity-level DRG codes,

    •   outpatient billing for Lupron injections, and

    •   outpatient claims billed with modifier 59.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, § 1833(e) of the Act
precludes payment to any provider of services or other person without information necessary to
determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, § 80.3.2.2,
requires providers to complete claims accurately so that Medicare contractors may process them
correctly and promptly. Chapter 23, § 20.3, of the Manual states that providers must use HCPCS
codes for most outpatient services.

Tulane Medical Center of New Orleans

Tulane Medical Center of New Orleans (the Hospital) is a 354-bed hospital located in New
Orleans, Louisiana. Medicare paid the Hospital approximately $113 million for 5,874 inpatient
and 89,428 outpatient claims for services provided to beneficiaries during calendar years 2010
and 2011 (audit period) based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.



                                                   2
Scope

Our audit covered $1,517,875 in Medicare payments to the Hospital for 125 claims that we
judgmentally selected as potentially at risk for billing errors. These 125 claims consisted of 79
inpatient and 46 outpatient claims and had dates of service during the audit period.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected 31
claims to focused medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

Our fieldwork included contacting the Hospital, located in New Orleans, Louisiana, from June
2012 through May 2013.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for the audit period;

   •    used computer matching, data mining, and analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

   •    judgmentally selected 125 claims (79 inpatient and 46 outpatient) for detailed review;

   •    reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;

   •    reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the selected claims;

   •    requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;




                                                 3
   •   used an independent contractor to determine whether 31 selected claims met medical
       necessity requirements;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 64 of the 125 selected inpatient
and outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 61 claims, resulting in overpayments of $523,928 for the
audit period. Specifically, 35 inpatient claims had billing errors resulting in overpayments of
$476,010, and 26 outpatient claims had billing errors resulting in overpayments of $47,918.
These errors occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims within the selected risk areas that contained errors. For the
results of our review by risk area, see Appendix A.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 35 of the 79 selected inpatient claims, which
resulted in overpayments of $476,010.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 31 of the 79 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. Hospital
officials attributed the errors to a failure to correctly apply level-of-care criteria, a failure to
obtain a higher level second review or to communicate the determination, and incomplete




                                                 4
physician documentation. As a result of these errors, the Hospital received overpayments of
$417,750. 3

Incorrectly Billed Diagnosis-Related Group Codes

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, the Manual, chapter 1,
§ 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

For 4 of the 79 selected inpatient claims, the Hospital billed Medicare for incorrect DRG codes.
Hospital officials stated that these errors occurred because Hospital staff misapplied coding
guidelines or failed to ask the physician for clarification. As a result of these errors, the Hospital
received overpayments of $58,260.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 26 of the 46 selected outpatient claims, which
resulted in overpayments of $47,918.

Incorrectly Billed Lupron Injections

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, § 1833(e) of the Act
precludes payment to any provider of services or other person without information necessary to
determine the amount due the provider.

Lupron is a drug commonly used to treat certain cancers. The U.S. Food and Drug
Administration approved different dosages of Lupron for the treatment of different diagnoses.
Lupron is used to treat (1) uterine disorders, in doses of 3.75 mg once a month or 11.25 mg once
every 3 months (HCPCS code J1950), and (2) prostate cancer, in doses of 7.5 mg once a month,
22.5 mg once every 3 months, or 30 mg once every 4 months (HCPCS code J9217). A Local
Coverage Determination (LCD) addressing Lupron billing4 states that HCPCS code J1950 is not
to be used for prostate cancer.


3
  The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than an inpatient. We were unable to determine the effect that billing Medicare Part B would have
on the overpayment amount because these services had not been billed or adjudicated by the Medicare
administrative contractor prior to the issuance of our report.
4
 Pinnacle Business Solutions, Inc., issued the LCD, “Luteinizing Hormone-Releasing Hormone Analogs for the
Treatment of Malignant Neoplasm of the Prostate, #AC-07-004 V9 (Rev. Eff. 09/15/2008).” An LCD is a
determination by a Medicare contractor on whether an item or service is covered by Medicare. Pinnacle was the
Medicare contactor for Louisiana during our audit period.


                                                          5
For all of the 26 selected claims for Lupron injections, the Hospital incorrectly billed HCPCS
code J1950 for the treatment of prostate cancer. Hospital officials stated that the LCD applied
only to physician services; therefore, the Hospital’s existing controls did not adequately prevent
incorrect billing of Medicare claims. As a result of these errors, the Hospital received
overpayments of $47,918.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $523,928, consisting of $476,010 in overpayments for
       35 incorrectly billed inpatient claims and $47,918 in overpayments for 26 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

TULANE MEDICAL CENTER COMMENTS

In written comments on our draft report, the Hospital disagreed with our findings
and recommendations for 20 inpatient claims that it should have billed as outpatient or
outpatient with observation services. The Hospital stated that it acted in accordance with
Medicare policy because it provided care and treated the patients as ordered by their physicians
and because of the clinical presentation of the patient at the time of service.

The Hospital also disagreed with our findings and recommendations on the 26 outpatient Lupron
claims that it billed using an incorrect HCPCS code. The Hospital stated that long-standing
CMS guidance provides that when there are HCPCS codes for multiple doses of the same drug,
the HCPCS code with the lowest dose may be used for billing purposes. The hospital further
stated that the LCD referenced in the draft report did not pertain to it; that LCD applies to
carrier-processed physician office claims, not to fiscal intermediary-processed hospital outpatient
claims billed under Part A. The hospital added that, without specific CMS instruction to the
contrary, the Hospital billed at the lowest dosage HCPCS code available (HCPCS J1950).

The Hospital agreed with our findings and recommendations for the remaining claims and
described actions it has taken to strengthen its internal controls to ensure full compliance with
Medicare requirements. The Hospital stated that it is committed to operating in compliance with
applicable rules and regulations and will intensify its efforts to improve its internal controls.

The Hospital’s comments are included in their entirety as Appendix B.




                                                 6
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid.

For the 20 inpatient claims that that Hospital should have billed as outpatient or outpatient with
observation services, we used an independent medical review contractor to determine whether
the claims met inpatient medical necessity requirements. The contractor examined all of the
medical records and documentation the Hospital submitted and carefully considered this
information to determine whether it billed the claims according to Medicare requirements.
Based on the contractor’s conclusions, we determined that the 20 inpatient claims should have
been billed as outpatient or outpatient with observation services.

For the 26 outpatient claims for Lupron injections that the Hospital billed using an incorrect
HCPCS code, we maintain that the Hospital’s use of multiple units of HCPCS code J1950
(3.75mg of Lupron) to bill for the single 3-month doses of 22.5mg that it administered to
advanced prostate cancer patients was improper because code J9217 applies to 22.5mg doses.
Since 1995, the FDA has approved the Lupron 3-month dose of 22.5mg solely for advanced
prostate cancer, and, since 2001, the FDA has approved the 3.75mg dose specifically for uterine
disorders. Pinnacle was the Part A fiscal intermediary and Part B carrier for Louisiana during
our audit period. Hospital outpatient claims are paid under Part B. Thus, Pinnacle’s LCD stating
that HCPCS code J1950 is not to be used for prostate cancer would apply to all Part B claims
paid by Pinnacle.

We continue to recommend that the Hospital refund the full $523,928 in Medicare
overpayments.




                                                 7
APPENDIXES
                           APPENDIX A: RESULTS OF REVIEW BY RISK AREA



                                                                                                    Claims
                                                                                 Value Of            With            Value Of
                                                              Selected           Selected           Over-             Over-
                    Risk Area                                 Claims              Claims           payments          payments
Inpatient

Short Stays                                                       40              $588,527              27            $350,890

Claims Paid in Excess of Charges                                  19               320,627               7              97,881
Claims Billed With High-Severity-Level
                                                                  20                484,724              1              27,239
Diagnosis-Related Group Codes
 Inpatient Totals                                                 79            $1,393,878              35           $476,010



Outpatient

Lupron Injections                                                 26              $63,079               26            $47,918

Claims Billed With Modifier -59                                   20                60,918               0                  0

 Outpatient Totals                                                46              $123,997              26            $47,918



 Inpatient and Outpatient Totals                                  125           $1,517,875              61            $523,928

       Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
       outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
       billing errors we found at Tulane Medical Center. Because we have organized the information differently, the
       information in the individual risk areas in this table does not match precisely with this report’s findings.
                                                                                                       Page 1 of 16


        APPENDIX B: TULANE MEDICAL CENTER COMMENTS 




                                                                                    1415 Tulane Ave.

     Tulane
     Med1cal Center
                                                                               New Orleans, LA 70112




July 25, 2013


BY Federal Express and Electronic Mail

Patricia Wheeler
Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services , Region VI
1100 Commerce Street, Room 632
Dallas, Texas 75242

Re: 	 Response to the Draft Report regarding the Medicare Compliance Review of
      Tulane Medical Center of New Orleans, Report Number: A-06-12-00034

Dear Ms. Wheeler:

        Tulane Medical Center ("Tulane" or "Hospital")1 is in receipt of the draft report from the
U.S . Department of Health and Human Services, Office of the Inspector General ("OIG") (A-06­
12-00034), dated June 4, 2013, entitled "Medicare Compliance Review of Tulane Medical
Center of New Orleans for Calendar Years 2010 and 2011 " (referred to herein as "Draft
Report"). As permitted by the terms of the Draft Report, this letter sets forth the Hospital's
objections to the OIG's findings with respect to both the inpatient and outpatient claims at issue;
and (2) the OIG's recommendation that the Hospital refund to the Medicare contractor a total of
$523,928 in "overpayments."

1.      Background

         The OIG did not audit Tulane due to any perceived improper billing or compliance
practices. Rather, the OIG selected Tulane as part of an ongoing national auditing initiative
focused on certain risk areas for hospitals across the country. Indeed, as of the date of this
letter, the OIG's national initiative has resulted in the publication of Medicare Compliance
reports relating to 61 hospitals in 24 states, the District of Columbia, and Puerto Rico?

        In this case, the OIG's audit considered five risk areas ("Risk Areas") : (1) inpatient 





        Tulane Medical Center is a 348-bed acute care hospital located in New Orleans, 

        Louisiana. 

        See HHS-OIG, Centers for Medicare and Medicaid Services Reports, 

        https://oig .hhs.gov/reports-and-publications/oas/cms.asp. 

                                                                                                                  Page 2 of 16




                                                                          Patricia Wheeler
    Tulane
    \kdt,;~l   C ..:nlc.:t
                                                                          HHS-OIG, Office of Audit Services, Region VI
                                                                          July 25, 201 3
                                                                          Page 2




claims for "short stays", 3 (2) inpatient claims paid in excess of charges, (3) inpatient claims with
high-severity diagnosis-related group ("DRG") codes, (4) outpatient claims for Lupron injections
and (5} outpatient claims with modifier 59.4

       The audit of Tulane covered 125 claims involving one or more of the Risk Areas with
dates of service in calendar years 2010-2011 ("Audit Period"), selected by the OIG5 as
potentially at risk for billing errors. After the OIG judgmentally selected the sample of 125
claims (representing $1,517,875 in Medicare reimbursement), the claims were subject to a
substantive review.6 Of the 125 claims, there were 79 inpatient claims: 40 short stays, 19
claims paid in excess of charges and 20 high-severity level DRG codes. The remaining forty-six
(46) outpatient claims included: 26 Lupron injection claims and 20 claims billed with modifier
59. Of the 125 claim sample, the OIG subjected 31 to focused medical review through an OIG
            7
contractor. The OIG also asked the Hospital to self-evaluate claims.

11.       Draft Report Findings

       At the conclusion of the OIG's review, it found that Tulane complied with Medicare billing
requirements during the Audit Period for 64 of the 125 judgmentally selected claims. The OIG
concluded that 61 claims of the 125 were allegedly billed in error, for a total alleged
overpayment of $523,928- a claims error rate of 49 percent, but a financial error rate of 34.5
percent.8

          The more specific findings break down as follows:

                       With regard to the 79 inpatient claims, the OIG identified 35 alleged erroneous
                       claims in two categories: (1) inpatient claims the Hospital billed Medicare Part A
                       for beneficiary stays that the OIG claims should have been billed as outpatient or
                       outpatient with observation services (hereinafter referred to as "Short Stays")9
                       and (2) claims the OIG identified as billed under the wrong DRG code.


          It is the Hospital's understanding that a "short stay" for purposes of the Audit included a 

          claim with an admission and discharge on the same calendar day and a claim in which 

          d ischarge occurred on the day immediately following the day of admission. 

          Draft Report, at 2 . 

          Despite Tulane's request for information and detail, the OIG has not explained why it 

          chose to use a judgmentally selected sample size of 125 claims. 

6
          l!t at Appendix. 

          l!t at 3 . 

          ld. at4. 

9
          The OIG notes in the Draft Report Appendix that certain claims were reviewed based on
          a specific Risk Area, but the OIG's findings are organized by type of billing error. Thus, a
          claim that was judgmentally selected based on one Risk Area, such as high-severity­
          level DRG, may be included in the OIG's findings section related to Short Stays.
                                                                                                                      Page 3 of 16




                                                                               Patricia Wheeler
  Tulane
  :\1<.:<11<..11 C ..: oll <.:r 	
                                                                               HHS-OIG, Office of Audit Services, Region VI
                                                                               July 25, 2013 

                                                                               Page 3 





                                    31 allegedly erroneous claims, to which OIG ascribed an alleged
                                    overpayment value of $417,750, were for Short Stays that the OIG
                                                                                           10
                                    contends should have been billed as outpatient stays.
                                • 	 The OIG identified four allegedly erroneous claims related to incorrect
                                    DRG codes, to which it ascribed an alleged overpayment value of
                                    $58,260.11
              •	            With regard to the 46 outpatient claims, the OIG identified 26 alleged erroneous
                            claims for Lupron injections, to which it ascribed an alleged overpayment value of
                            $47,918. The OIG did not identify any errors associated with claims billed with
                            modifier 59.12

       The OIG proceeds to recommend that Tulane refund $523,928 in Medicare
overpayments. It also recommends that the Hospital "strengthen controls to ensure full
compliance with Medicare requirements."13 For the reasons set forth below, the Hospital takes
strong exception to these recommendations.

111. 	        Tulane's Response to the Draft Report

              A. 	          Tulane contests numerous substantive findings in the Draft Report with
                            respect to inpatient claims

       Specifically, the OIG concluded that 35 inpatient claims were billed incorrectly and these
were in two categories: (1) Short Stays and (2) incorrect DRG codes.

         Tulane respectfully disagrees with the OIG with regard to 20 of these 35 claims on the
clinical merits, or on over half of the OIG's conclusions. Tulane had these claims re-reviewed
by independent, nationally recognized, third party reviewers who are physician experts in
Medicare rules and regulations. These independent physician experts concluded that, on the
merits, Tulane billed for the proper setting of care in 20 of the alleged 31 cited errors with
respect to Short Stay claims. Thus, only 11 (not 31 ) of the Short Stay claims may have been
billed in error.14

       Tulane respectfully submits that, despite the OIG's contention, Tulane did have "a
reasonable basis for assuming payment was correct" for the 20 Short St ay claims because it
complied with the Medicare Benefrt Policy Manual ("MBPM"), Ch. 1, § 10. Specifically, the
MBPM provides that "a patient is considered an inpatient if formally admitted as an inpatient

10 	
              Draft Report, at 4 .
11
              tl;L at 5.
12
              ld. at 5-6.
13
              tl;L at 6.
14
              These claims are Sample Numbers: IP Paid>Charges # 2 , 7 , 8; and Short Stays# 5 , 14,
              17, 25, 28, 30, 39, and 40.
                                                                                                                   Page 4 of 16




                                                                          Patricia Wheeler
  Tulane
  :\kdoc tl C c·n lc t
                                                                          HHS-OIG, Office of Audit Services, Reg ion VI
                                                                          July 25, 2013
                                                                          Page4




with the expectation that he or she will remain at least overnight and occupy a bed even though
it later develops that the patient can be discharged or transferred to another hospital and not
actually use a hospital bed overnight. "15 Thus, as long as there is an "expectation" of an
overnight stay, whether the patient is - in fact - discharged after six, 12 or 18 hours (for
example) is irrelevant: the patient was properly treated as a inpatient. Moreover:

                   The physician or other practitioner responsible for a patient's care
                   at the hospital is also responsible for deciding whether the patient
                   should be admitted as an inpatient. ..the decision to admit a
                   patient is a complex medical judgment which can be made only
                   after the physician has considered a number of factors, including
                   the patient's medical history and current medical needs, the types
                   of facilities available to inpatients and to outpatients, the hospital's
                   by-laws and admissions policies, and the relative appropriateness
                   of treatment in each setting.16

          In other words, there should be deference afforded to the patient's physician and this
critical , complex medical decision should not be summarily second-guessed by the OIG after­
the-fact. Given that Tulane provided care and treated the patient in the status as ordered by
his/her physician, and given the clinical presentation of the patient at the time of service, Tulane
submits that it acted in accordance with Medicare policy, as further confirmed by the results of
the independent third party physician review of the cases. Thus, Tulane contends that there is a
lack of evidence to support the OIG's claim that these 20 Short Stay claims were incorrectly
billed as inpatient, and therefore they do not constitute an "overpayment."

        With regard to DRG coding issues, Tulane concedes to OIG's finding that four claims
were billed in error.17 The incorrect coding occurred as a result of misapplication of the coding
guidelines. The findings from the Draft Report were reviewed with the Hospital Coding Team
and additional education was provided . The Hospital continues to have processes in place to
provide ongoing auditing, monitoring, and feedback of the coding performed in order to minimize
and eliminate errors, as well as to identify opportunities for improvement. Timely feedback and
education is consistently provided to all of the coders.

          B. 	     Tulane contests substantive findings in the Draft Report with respect to
                   Lupron injection outpatient claims

         Specifically, the OIG concluded that 26 outpatient claims for Lupron injections were
billed incorrectly. Tulane respectfully challenges the OIG's position with respect to all 26 of


15
          Medicare Benefit Policy Manual ("MBPM"), Ch. 1, § 10.
16 	
         !Q,
17 	
         These claims are Sample Numbers: IP High Severity DRG # 2; IP Paid>Charges # 1, 19;
         and Short Stay # 35.
                                                                                                                            Page 5 of 16




                                                                                    Patricia Wheeler
     Tulane
     :o- tc.: d~~:. tl   C ..:nll: o
                                                                                    HHS-OIG, Office of Audit Services, Region VI
                                                                                    July 25, 2013
                                                                                    Page 5




these claims on the clinical merits, or on one hundred percent of the OIG's conclusions .18
Tulane submits that the OIG did not apply the correct coverage criteria, applicable during the
Audit Period (201 0- 2011 ), when determining that the claims were erroneously billed.

        The OIG report indicates that "Medicare payments may not be made for items and
services that 'are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member"' and that "the Act precludes
payment to any provider of services or other person without information necessary to determine
the amount due the provider." 19 With respect to the 26 claims identified by the OIG for
treatment of prostate cancer, Hospital unequivocally asserts that they were billed correctly,
using J1950, Leuprolide injection, per 3.75 mg, based upon the following :

                                Long-standing CMS guidance provides that when HCPCS codes exist for
                                multiple doses of the same drug, it is appropriate to use the HCPCS code
                                with the lowest dose for billing purposes.
                                        Since 2000, CMS has indicated that the APC payment amount for drugs
                                        and biologicals is established at the lowest dosage level.
                                    • 	 Between 2000 and 2008, the CMS Outpatient Prospective Payment
                                        System ("OPPS") generally recognized only the HCPCS code for the
                                        lowest available administrative dose of a drug when multiple HCPCS
                                        codes existed for the drug. "In general, OPPS recognizes the lowest
                                        available administrative dose of a drug if multiple HCPCS codes exist for
                                        the drug."20
                                        Without specific CMS instruction to the contrary, Hospital billed at the
                                        lowest dosage HCPCS code available, namely HCPCS J1950.
                                   • 	 In fact, in the most recently published OPPS Proposed Rule for 2014,
                                        CMS states that "in consideration of CMS' previous policy that generally
                                        recognized only the lowest dosage HCPCS code for a drug or biological
                                        for OPPS payment", CMS continues to find that not requiring hospitals to
                                        report all drug and biological HCPCS codes "allows hospitals flexibility in
                                        choosing to report all HCPCS codes for different dosages of the same
                                        drug or only the lowest dosage HCPCS code."21

                                The Local Coverage Determination ("LCD") referenced by the OIG in the Draft
                                Report, AC-07-004 V9 (Rev. Eft. 09/15/2008)22 was issued by Pinnacle Medicare
                                Services {PBS I) {00528}- LA. However, the Contractor Type listed is "Carrier"
                                indicating that the LCD applies only to "Carrier" processed claims, i.e.,

18
                 These claims are Sample Numbers: Lupron Injections# 1 through 26.
19
                 Draft Report. at 5.
20
                 72 Fed. Reg. 66580, 66775 (Nov. 27, 2007).
21
                 78 Fed. Reg. 43534,43606 (July 19, 2013).
22
                 Attached hereto at Tab A.
                                                                                                              Page 6 of 16




                                                                     Patricia Wheeler
 Tulane
 :-- kd1.:.1i C c:nl.:r
                                                                     HHS-O IG, Office of Audit Services, Region VI
                                                                     July 25, 2013
                                                                     Page 6




                    physician office claims. This LCD does not pertain to hospital outpatient
                    claims billed under Part A and there were no applicable LCDs pertaining to
                    Tulane for billing of hospital outpatient claims during the Audit Period. In
                    the absence of specific guidance from Medicare or the Medicare contractor
                    regarding the appropriate use of these HCPCS codes during this time period,
                    Tulane followed guidance from CMS allowing the use of the HCPCS code with
                    the "lowest dosage" when multiple HCPCS codes exist for the same drug.

        Tulane respectfully submits that OIG's findings with respect to the outpatient Lupron
injection claims are contrary to CMS' own guidance (or lack of a specific CMS hospital
outpatient billing directive) and not pursuant to a then existing LCD directly applicable to hospital
outpatient claims.

IV.      Tulane's Internal Controls

        Tulane is a responsible provider of healthcare items and services with a deep
commitment to operating in compliance with applicable rules and regulations. As part of this
commitment, the Hospital routinely examines its coding and billing practices and procedures
with the objective of achieving ever-improved accuracy and completeness.

       Tulane is, and has always been. committed to operating in compliance with applicable
rules and regulations. While Tulane fundamentally disagrees with the OIG's findings with
respect to over two-thirds (or 46 claims) of the 61 claims as issue, the Hospital takes any finding
of potential errors seriously. Tulane will intensify its efforts to attend to any opportunities for
improvements, including continuing its efforts on patient status cases.

        In order to ensure that medical necessity for either an inpatient or an outpatient stay is
verified, Tulane already has a process that requires a review to be conducted on all Medicare
patients utilizing nationally recognized criteria at the time of admission. An internal review team
conducts reviews and utilizes external physician consultants 'for verification on defined
populations, thereby enabling adjustments prior to final billing. The OIG's determinations
notwithstanding, the Hospital has an impressive record in connection with appealing and
reversing RAC findings of error. Specifically, with respect to claims for services provided during
the Audit Period, involving one or more of the Risk Areas, Tulane has a 100 percent success
rate for RAC appeal decisions received to date. This strongly suggests that the Hospital's
internal controls are fully operational, highly effective, and comport with applicable laws,
regulations and agency guidance.
                                                                                                          Page 7 of 16




                                                                 Patricia Wheeler
 Tulane
 :'\l nh,;tl L ..:n1n
                                                                 HHS-O IG, Office of Audit Services, Region VI
                                                                 July 25, 2013
                                                                 Page 7




       On behalf of Tulane, we thank you in advance for your consideration of our position and
stated concerns. We will make ourselves available to you in the event that you have any
questions or require further information.

                                            Sincerely,

                                            /Robert Hatcher/

                                            Robert Hatcher
                                            Chief Financial Officer
                                            Advisor to Compliance

cc:      John Heurtin, VP of Finance
         Robert Lynch, MD, Chief Executive Officer
          Page 8 of 16 





Tab A 

                                                                                           Page 9 of 16




LCD - Carrier - Pinnacle Medicare Services (PBSI) J00528J - LA **HISTORICAL (as of
08/13/2012)**
Archived LCDs
Luteinizing Hormone-Releasing Hormone Analogs for the Treatment of Malignant Neoplasm of
the Prostate #AC-07-004 V9 (Rev. Eff. 09/15/2008)


Luteinizing Hormone-Releasing Hormone Analogs for the Treatment of Malignant
Neoplasm of the Prostate #AC-07-004 V9 (Rev. Eff. 09/15/2008)

                                                              General I nformat10n


!contractor Information
 Contractor Name Pinnacle Business Solutions, Inc. - Louisiana
 Contractor        Pinnacle Business Solutions, Inc. - Louisiana
 Business Name
 Contractor        00528
 Number
 Contractor Type   Carrier
!LCD Information
 LCD Database ID 26245
 Number
LCD Version          9
Number
LCD Title            Luteinizing Hormone-Releasing Hormone Analogs for the
                     Treatment of Malignant Neoplasm of the Prostate
Contractor's         AC-07- 004
Determination
Number
Status of this       Approved
Version
AMA CPT/ ADA         CPT codes, descriptions and other data only are copyright 2008
COT Copyright        American Medical Association (or such other date of publication of
Statement            CPT). All Rights Reserved . Applicable FARS/DFARS Clauses
                     Apply . Current Dental Terminology, (COT) (including procedure
                     codes, nomenclature, descriptors and other data contained
                     therein) is copyright by the American Dental Association . © 2002,
                     2004 American Dental Association. All rights reserved. Applicable
                     FARS/DFARS apply.
CMS National         D Title XVIII of the Social Security Act, section 1862(a)(l)(A).
Coverage Policy      This section allows coverage and payment for only those services
                     that are considered to be medically reasonable and necessary.
                     D Title XVIII of the Social Secu rity Act, section 1833(e) . This
                     section prohibits Medicare payment for any claim which lacks the
                     necessary information to process the claim .

Primary              Louisiana (LA)
Geographic
Jurisdiction
                                                                                            Page 10 of16




Oversight Region     Region VI
CMS Consortium       Midwest
Original             10/15/2007
Determination
Effective Date
Original             N/A
Determination
Ending Date
Revision Effective   09/15/2008
Date
Revision Ending      N/A
Date
Indications and      In order to be covered under Medicare, use of a drug or biological
Limitations of       must be safe and effective and otherwise reasonable and
Coverage and/or      medically necessary. Drugs or biologicals approved for marketing
Medical Necessity    by the FDA are considered safe and effective for purposes of this
                     requirement when used for approved indications as specified on
                     the labeling. Medical necessity is, however, determined by the
                     Carrier at the local level.

                     Carriers implement Local Coverage Determinations (LCDs) to
                     apply the standard of reasonable and necessary in situations not
                     covered by specific National Coverage Determinations (NCDs).
                     The underlying issue in the application of Social Security 1862A(a)
                     ( 1)(A) is: if two services are clinically comparable, Medicare does
                     not cover the additional expense of the more costly one, because
                     this additional expense is not attributable to an item or service
                     that is medically reasonable and necessary.

                     Therefore, Medicare will only pay for the least costly agent. The
                     beneficiary may be charged up to the price difference between the
                     least costly and the more costly medication as established by ASP.
                     The beneficiary indicates acceptance of the additional payment by
                     signing an Advanced Beneficiary Notice for each injection and a
                     GA modifier is required on claim submission.

                     LHRH/GnRH drugs are covered for patients with palliative
                     treatment of advanced prostate cancer when orchiectomy or
                     estrone administration are either not indicated or are
                     unacceptable to the patient

                     A. LHRH/GnRH INJECTIONS:
                     The Carrier has completed a broad and extensive review of the
                     medical literature and has concluded that there is no
                     demonstrable difference in clinical efficacy between J9202
                     (Goserelin Acetate), J9217 (Leuprolide Acetate or Eligard), and
                     J3315 (Trelstar), and J9999 (Firmagon [degarelix]) when used for
                     the palliative treatment of advanced prostate cancer. No more
                     than 7.5 mg of leuprollde depot will be covered per month.

                     Prior to effective date 09/15/2008, the Arkansas Consortium
                     policy used a grandfather date for consideration of the more
                     costly drug. Effective 09/15/2008, this grandfather is no longer
                                                                                           Page 11 of16




                    taken into consideration and the least costly alternative will apply
                    to all beneficiaries receiving LHRH/GnRH drugs for prostate
                    cancer.

                    Reimbursement for LHRH injections for prostate carcinoma will be
                    the lesser of either the billed charges or reimbursement rates set
                    by the ASP for whichever drugs is least costly. There are five
                    injectable forms of LHRH/GnRH approved for malignant neoplasm
                    of the prostate and the LCA provision will apply to any future
                    LHRH/GnRH drugs which are determined to be equivalent.

                    These drugs are approved by Part B Medicare for office service
                    only. Self-administration of these injections is non-covered.

                    B. LRHR/GnRH IMPLANTS:
                    Drug company information describes up to 20% of intolerance to
                    the implantable form and 20% lack of response to the drugs in
                    general. Therefore, the provider should consider that there would
                    have been a demonstrated tolerance and response to the drugs
                    prior to the use of long term Implantable form. The Implantable
                    form may be used for this purpose in patients whom have a
                    reasonable expectation of surviving at least 12 months.

                    Viadur and Vantas implants are synthetic nonapeptide analogs of
                    naturally occurring gonadotropin-releasing hormones (GnRH) or
                    luteinizing hormone releasing hormone (LHRH). These
                    subcutaneous implants are indicated in the palliative treatment of
                    advanced prostate cancer.
                    • Viadur (J9219) is a leuprolide acetate implant that received FDA
                    approval on March 3, 2000. Viadur delivers leuprolide acetate over
                    12 months at a controlled rate.
                    • Vantas (J9225) Is a histrelin implant that received FDA approval
                    on October 12, 2004 . Vantas delivers histrelin continuously for 12
                    months.

                    The Carrier has completed a broad and extensive review of the
                    medical literature and has concluded that there is no
                    demonstrable difference in clinical efficacy between Viadur and
                    Vantas. Therefore, the Carrier will reimburse any impla ntable
                    versions utilized for the palliative treatment of advanced prostate
                    cancer based upon the least costly alternative.

                  The Carrier bases the reimbursement for either implant for
                  prostate carcinoma on the lower rate of the two as established by
                  the Average Sales Price (ASP). There are two implantable forms of
                  LHRH/GnRH, but the LCA provision will apply to any future
                  LHRH/GnRH implants used for the indication of prostate cancer
                  and determined to be equivalent.
Coding Information
Bill Type Codes 	 Contractors may specify Bill Types to help providers
                  identify those Bill Types typically used to report this
                  service. Absence of a Bill Type does not guarantee that the
                  policy does not apply to that Bill Type. Complete absence of
                  all Bill Types indicates that coverage is not influenced by
                                                                                           Page 12 of 16




                   Bill Type and the policy should be assumed to apply equally
                   to all claims.


Revenue Codes      Contractors may specify Revenue Codes to help providers
                   identify those Revenue Codes typically used to report this
                   service. In most instances Revenue Codes are purely
                   advisory; unless specified in the policy, services reported
                   under other Revenue Codes are equally subject to this
                   coverage determination. Complete absence of all Revenue
                   Codes indicates that coverage is not influenced by Revenue
                   Code and the policy should be assumed to apply equally to
                   all Revenue Codes.

                   Revenue codes only apply to providers who bill these services to
                   the fiscal intermediary. Revenue codes do not apply to physicians,
                   other professionals and suppliers who bill these services to the
                   carrier.

                   Please note that not all revenue codes apply to every type of bill
                   code. Providers are encouraged to refer to the FISS revenue code
                   file for allowable bill types. Similarly, not all revenue codes apply
                   to each CPT/HCPCS code. Providers are encouraged to refer to the
                   FISS HCPCS file for allowable revenue codes .

                   Revenue codes 096X, 097X and 098X are to be used only by
                   Critical Access Hospitals (CAHs) choosing the optional payment
                   method (also called Option 2 or Method 2) and only for services
                   performed by physicians or practitioners who have reassigned
                   their billing rights. When a CAH has selected the optional payment
                   method, physicians or other practitioners providing professional
                   services at the CAH may elect to bill their carrier or assign their
                   billing rights to the CAH. When professional services are
                   reassigned to the CAH, the CAH must bill the FI using revenue
                   codes 096X, 097X or 098X.


CPT/HCPCS Codes This policy does not take precedence over the Correct Coding
                Initiative (CCI). Consult current correct coding guidelines for
                applicable specific code combinations or reductions in payment
                due to specific codes billed.

                    The following short descriptors are in accordance with the AMA
                    copyright agreement. Please refer to t he current HCPCS book for
                    full descriptions.

                    LHRH/GnRH INJECTABLES:

                    13315
                    INJECTION, TRIPTORELIN PAMOATE, 3.75 MG

                    J9292
                    GOSERELIN ACETATE IMPLANT, PER 3.6 MG
                                                                                          Page 13 of 16




                    J9217
                    LEUPROLIDE ACETATE (FOR DEPOT SUSPENSION), 7 . 5 MG

                    )9999
                    NOT OTHERWISE CLASSIFIED, ANTINEOPLASTIC DRUGS

                    LHRH/GnRH INJECTABLE$ :

                    HCPCS code J9218 is considered a self-administered drug and is
                    therefore not covered.

                    HCPCS code J1950 is not to be used for prostate cancer.

                    *** for Firmagon (Degarelix)
                    Jl950
                    INJECTION, LEUPROLIDE ACETATE (FOR DEPOT SUSPENSION),
                    PER 3.75 MG

                    )9218
                    LEUPROLIDE ACETATE, PER 1 MG

                    LHRH/GnRH IMPLANTABLES :

                    FYI only: use 11981, 11982, and/or 11983 only for the insertion,
                    removal, or removal with reinsertion of J9219 or J9225
                    1 \ 9_fl1
                    INSERTION, NON-BIODEGRADABLE DRUG DELIVERY IMPLANT

                    1198?
                    REMOVAL, NON­ BIODEGRADABLE DRUG DELIVERY IMPLANT

                     I   f
                    REMOVAL WITH REINSERTION, NON­ BIODEGRADABLE DRUG
                    DELIVERY IMPLANT

                    J92_1_9
                    LEUPROLIDE ACETATE IMPLANT, 65 MG

                    J9225
                    HISTRELIN IMPLANT (VANTAS), 50 MG
Not Otherwise
Classified (NOC}
ICD- 9 Codes that   Not applicable . Covered ICD-9-CM codes are outlined an arti cle in
Support Medical     accordance with the Anti -Cancer Drug, AC­ 01-024, policy .
Necessity
                    xxooo
                  Not Applicable
Diagnoses that    Not applicable
Support Medical
Necessity
ICD­ 9 Codes that
DO NOT Support
Medical Necessity Not applicable
                                                                                        Page 14 of 16




Non-Medical
Necessity ICD-9
Codes Asterisk
Explanation
Diagnoses that    Not applicable
DO NOT Support
Medical Necessity
Coding Guidelines
General Information
Documentation     1. Documentation supporting the medical necessity of this item,
Requirements      such as ICD-9- CM codes, must be submitted with each claim.
                  Claims submitted without such evidence will be denied as not
                  being medically necessary.
                  2. The patient's medical record must be clear and legible.
                  3. All coverage requirements must be met for the procedure to be
                  allowed, and documentation must show that the service was
                  reasonable and medically necessary for the billed diagnosis.
                  4 . Medical records need not be submitted with the claim;
                  however, they must be furnished to Medicare upon request.



Appendices
Utilization         1. When billing an Injectable form, utilize the appropriate HCPCS
Guidelines          code applicable with multiple NOS to achieve the mg
                    administered. The 12 month long- acting implants (J9219 or
                    J9225) must always be filed with a unit number of one.
                    2. Since J1950 is for 3.75 mg and the dosage for prostatic cancer
                    starts at 7.5 mg, HCPCS code J1950 is not payable for ICD-9-CM
                    code 185, 198.82, or 233.4.

Sources of         1. CMS Manual System, Pub. 100-2, Medicare Benefit Policy
Information and    Manual, Chapter 15, section 50.
Basis for Decision 2. USPDI, 2006 Compendia Listing :
                   Pages 1906-1911: Leuprolide Acetate, Eligard, Lupron, Lupron
                   Depot, Viadur
                   Pages 2902-2904 : Trelstar Depot (Triptorelin)
                   3. The Federal Drug Administration approval letters.
                   4. CMS Manual System, Pub. 100-8, Medicare Program Integrity
                   Manual, Chapter 13, sections:
                   13.3 Individual Claim Determination;
                   13.4.A Least Costly Alternative; and
                   13.5.4 Alternative service must be tried first.
                   5. Local Medical Review Policies/Local Coverage Determinations:
                   • Consolidated LCD from PBS! consortium - Leuprolide
                   Acetate/Goserelin (Gonadotropin Releasing Hormone Analogs),
                   AC-01-019;
                   • Arkansas - Leuprolide acetate/Goserelin (Gonadotropin
                   Releasing Hormone Analogs), AR- 95;
                   • Louisiana - Leuprolide Acetate (Lupron)/Goserelin Acetate
                   (Zoladex), LA-99-002;
                   • Missouri - Leuprolide Acetate (Lupron)/Goserelin Acetate
                   (Zoladex)/Leuprolide Acetate Implant (Viadur), # 118;
                   • New Mexico - Leuprolide Acetate & Goserelin Acetate or
                                                                                         Page 15 of16




                   Leuprolide Acetate Implant (Viadur), 96-030; and
                   • Oklahoma - Leuprolide Acetate & Goserelin Acetate or Leuprolide
                   Acetate Implant (Viadur), 96-030.
                   6. CMS Manual System, Pub. 100-4, Medicare Claims Processing
                   Manual, Chapter 12, section 30.5.
                   7. Manufacturers' drug package inserts.
                   8. AHFS, 2007 Compendia Listing :
                   • Pages 1110- 1118: Leuprolide Acetate Injection, Eligard,
                   Lupron, Lupron Depot
                   • Pages 1056-1058: Goserelin Acetate (Zoladex)
                   • Pages 1058- 1059: Histrelin Acetate (Vantas)
                   • Pages 1221-1222 : Triptorelln (Trelstar Depot)
Advisory           The Arkansas consortium combined LCD was presented in May
Committee          2007 and accepted in AR, LA, OK, NM, and MO. A revised policy
Meeting Notes      removing the grandfather clause was presented at the May 2008
                   CACs in AR and LA and accepted .

                   "This policy does not reflect the sole opinion of the contractor or
                   Contractor Medical Director. Although the final decision rests with
                   the contractor, this policy was developed in cooperation with
                   advisory groups, which includes representatives from all
                   recognized specialties within the state including, but not limited
                   to, radiation oncology and urology."

Start Date of      09/01/2009
Comment Period
End Date of        10/31/2009
Comment Period
Start Date of      N/A
Notice Period
Revision History   #9 ­ 08/17/2009
Number             #8 ­
                   #7- 07/31/2008 (comment and notice provided)
                   #6 - 05/14/2008
                   #4 & #5- 02/25/2008
Revision History   #9 - 08/04/2009 Opened comment period for addition of
Explanation        Firmagon (Degarelix) (09/01/2009 ­ 10/31/2009) for Arkansas
                   and Louisiana Part B. Presented to CACs in September 2009

                   [#8 - Corrected typographical error in MCD version by deleting
                   duplicated 1st sentence.]

                   07/17/2008 #6
                   Finalized in accordance with changes noted in 04/23/2008
                   Revision History. Effective 9/ 15/2008, the grandfather clause will
                   no longer apply and all patients are subject to the least costly
                   alternative (LCA) provision. The Carrier can implement LCA based
                   upon CMS Publication 100­ 8, section 13.5.4.

                   05/3 1/2008 #6
                   PBSI policy retired in Missouri due to workload transition to J5
                   MAC contractor (Wisconsin Physicians Services) .
                                                                     Page 16 of 16




04/23/2008 #6 

Opened comment period for the removal of the grandfather clause 

(05/01/08-06/30/2008) for Arkansas and Louisiana Part B. 

Presented to the CACs in May 2008. Specific changes will be 

documented when the comment period is closed. 


02/29/2008 - #4 & #5 

Revised short descriptor for J9225 effective 1/1/2008. 


PBSI policy retired in New Mexico and Oklahoma due to workload 

transition to J4 MAC contractor (Trailblazer Health Enterprises, 

LLC). 


08/21/2007 

HCPCS code J1950 was added during the comment period based 

upon recommendations received. Addition is to clarify that this 

HCPCS code is not to be used for prostate cancer. 

